           Survey of
     Large Facility Projects
Management and Oversight Division



     National Science Foundation
     Office of Inspector General


          December 29, 2004
            OIG 05-6-002
                               SURVEY OF
                         LARGE FACILITY PROJECTS
                     MANAGEMENT AND OVERSIGHT DIVISION

Background

NSF, in order to accomplish its purpose of advancing science and engineering in the
United States across a broad and expanding frontier, primarily invests in single-
investigator and small group awards that are small in scale and average approximately
three years in duration. However, another portion of NSF’s portfolio is dedicated to the
“acquisition, construction, and commissioning of major research facilities and equipment
that provide unique capabilities at the frontiers of science and technology.”1 These
facilities – such as accelerators, telescopes, research vessels and aircraft,
supercomputers, digital libraries, and earthquake simulators – are large in scope, may
take many years to complete, and may be in operation or use for decades. The need
for these facilities is generated within the user community itself and funding is approved
only after a rigorous vetting process within the potential user community, the NSF, and
finally, the National Science Board. According to NSF, projects that reach this stage are
“transformative in nature, [and] have the potential to shift the paradigm in scientific
understanding and/or infrastructure technology.”2

Beginning with fiscal year 1995, NSF has funded these projects through a separate
appropriation account now called the Major Research Equipment and Facilities
Construction (MREFC) account. While, as a percentage of NSF’s total budget, the
annual dollars appropriated through this account have not changed significantly since
the account’s inception, the number of projects proposed by the science and
engineering community for this funding has increased in recent years. NSF has a list of
six projects that have passed through its vetting process but have not been funded.3

One of the challenges for NSF is that management of these awards is inherently
different from the majority of awards that NSF makes. While oversight of the
construction and management of these large facility projects and programs must always
be sensitive to the scientific endeavor, oversight also requires a different management
approach. It requires disciplined project management including paying close attention
to meeting deadlines and monitoring budgets, and working hand-in-hand with scientists,
engineers, project managers, and financial analysts. Although NSF does not directly
operate or manage these facilities, it is NSF that is ultimately responsible and
accountable for their success. Consequently, it is vital that NSF, through disciplined
project management and oversight, exercise proper stewardship over the public funds
invested in these large projects.

1
  NSF’s Fiscal Year 2005 Budget Request to the Congress.
2
  Ibid.
3
  Of the six large facilities projects on the unfunded list, two projects, the Scientific Ocean Drilling Vessel
and the Rare Symmetry Violating Processes, will receive construction funding and another, the National
Ecological Observatory Network, will receive planning and development funding in fiscal year 2005.


                                                       1
Survey Objectives, Scope, and Methodology

The objectives of this survey were to determine what progress the Large Facility
Projects (LFP) Office has made in developing and implementing its project management
guidelines and central cost-tracking system, whether the Deputy Director, Large Facility
Projects (Deputy Director) has encountered any obstacles in implementing a viable
large facility management and oversight program, and what future plans the Deputy
Director has for the program.

To accomplish these objectives we conducted interviews of individuals involved in the
management of large facility projects at NSF. We spoke with individuals involved at all
levels including the new Deputy Director and LFP Office staff, program officers, and a
principal investigator of one of these large projects. This survey was not intended to be
an audit of the large facility program. As such, our work was limited in nature and
based on observations and interviews only. Further, this survey did not include
evaluating the financial or programmatic performance of any large facility project. We
conducted this survey between September and December 2004, in accordance with
generally accepted government auditing standards.




                                            2
                                        Results of Survey
The Large Facility Projects (LFP) Office continues to face a number of obstacles to
successfully implementing a viable large facility management and oversight program
because NSF has not yet established a management framework that adequately
recognizes and supports the LFP Office’s intended oversight responsibility. In addition,
while NSF has made some progress during the four years since it first committed to
instituting new project and financial management policies and procedures for the
management and oversight of its large facility projects, NSF has yet to complete its
project management guidelines or central cost-tracking system. NSF needs to
demonstrate its commitment to effective large facility project management by
formalizing the LFP Office’s project management oversight role, and providing it with the
appropriate institutional authority and staff resources to accomplish this very essential
responsibility. Continued delay in addressing this issue puts NSF’s investments, and
taxpayer dollars, at risk of potential mismanagement and waste.

Management Framework Needed To Recognize Project Oversight Role of LFP
Office

NSF, in response to Congressional and Office of Inspector General (OIG) interest,
established the LFP Office with the intent that it would perform an oversight function.
Between 2000 and 2002, the OIG issued three audit reports on large facilities with
findings and recommendations aimed at improving NSF’s oversight and management of
and accounting for these large projects. Primarily, the recommendations were aimed at
(1) increasing NSF’s level of oversight of these projects with particular attention on
updating and developing policies and procedures to assist NSF managers in project
administration, and (2) ensuring that accurate and complete information on the total
costs of major research equipment and facilities is available to NSF managers, as well
as the National Science Board, which is responsible for not only approving the funding
for these large projects, but also setting the relative priorities for their funding.

Likewise, the Congress has also been interested in NSF’s oversight and management
of large facility projects. In September 2001, the House Science Committee held a
hearing specifically to address this important issue, with one member of the Committee
expressing concern “about whether the lines of authority for facility project management
are sufficiently clear.”4 The member also stressed that, “It is important that the authority
and responsibility for the management of large construction projects be unambiguous.”5
Appropriation reports from both the House and the Senate have also discussed the
need within NSF for increased management over this important portion of NSF’s

4
  U.S. House of Representatives, Committee on Science, Subcommittee on Research, Hearing on the
National Science Foundation’s Major Research Facilities: Planning and Management Issues, September
6, 2001. A member of the Subcommittee expressed concern that the arrangement where a Program
Officer who reports to an Assistant Director maintains responsibility for project management, while the
Deputy for Large Facility Projects reports to the Chief Financial Officer, “appears to create separate lines
of authority to business oversight in technical management of a project.”
5
  Ibid.


                                                     3
portfolio. In 2003, the Senate Committee on Appropriations directed NSF to
immediately develop internal guidelines and a central cost-tracking system of all
research projects to ensure adequate oversight.6 More recently, the Senate Committee
has expressed concern over the lack of staffing resources within NSF’s new Large
Facility Projects Office,7 to effectively carry out this oversight responsibility.

NSF responded to the OIG audits and Congressional interest by stating, through its
corrective action plan, that it would both develop policies for managing large facility
projects, including tracking the full-cost of these projects, and establish a new
organizational unit charged with oversight of facility projects, headed by a Deputy, Large
Facility Projects, reporting to NSF’s Chief Financial Officer. In a March 26, 2002
briefing on its Large Facility Projects Management and Oversight Plan, given to NSF’s
Business and Operations Advisory Committee, NSF presented the purpose of this unit
as twofold: assisting with non-scientific aspects of project management; and
conducting post-award oversight of business operations, financial and internal
control systems, and project management.8 After an extensive search, NSF created
and filled this new position in June 2003 – the Deputy Director, Large Facility Projects
(Deputy Director) within NSF’s Office of Budget, Finance, and Award Administration.

The Committee on Setting Priorities for NSF-Sponsored Large Research Facility
Projects of the National Academies9 envisioned a similar oversight role for NSF’s LFP
Office in its recent 2004 report, Setting Priorities for Large Research Facility Projects
Supported by the National Science Foundation. In addition to recommending external
periodic reviews of the implementation of large facility projects by independent panels of
science, engineering, and project management experts, the Committee recommended
that the Deputy Director, Large Facility Projects, have “adequate and experienced
project construction and management staff, access to qualified consultants and
contractors, and the institutional authority to oversee the design engineering,
construction, and operation phases adequately. Each project or program will have
dedicated leadership, but it is this deputy who has principal responsibility to




6
  S. Report 108-143, Departments of Veterans Affairs and Housing and Urban Development, and
Independent Agencies Appropriations Bill, 2004.
7
  S. Report 108-353, Departments of Veterans Affairs and Housing and Urban Development, and
Independent Agencies Appropriations Bill, 2005.
8
  NSF’s Advisory Committee for Business and Operations provides advice to the Director, Office of
Budget, Finance, and Award Management, and to the Director, Office of Information and Resource
Management concerning issues related to the oversight, integrity, development and enhancement for
improved performance of NSF's business operations.
9
  The National Academies is a corporation created by Congress for the purpose of advising the federal
government on scientific and technical matters. In a letter dated June 12, 2002, Senators Barbara
Mikulski, Christopher Bond, Ernest Hollings, John McCain, Edward Kennedy, and Judd Gregg requested
the National Academies to review NSF’s process for prioritizing large facility projects and recommend
improvements. The Academies established the Committee on Setting Priorities for NSF-Sponsored
Large Research Facility Projects to respond to this request.


                                                  4
support the undertakings and for oversight and management.”10 [Emphasis
added.]

Thus, it was intended by NSF that the LFP Office would have sufficient institutional
authority and resources in order to carry out its oversight role to independently gather
and maintain information on and assess the scientific progress and financial
performance of large facility projects. Also, in this oversight capacity, it was intended
that the LFP Office would have the ability to report on its findings and recommendations
at an organizational level capable of influencing management decisions affecting both
the programmatic and financial aspects of the projects, from the early phases of
planning for the project, through implementation and operations.

Having an independent project management oversight office can heighten the success
of large facility research projects funded by NSF. Much like independent merit review
and advisory committees are essential to ensuring that NSF is funding the best scientific
projects that push the envelope of research, independent oversight of project
management can ensure that NSF-funded projects are properly planned, have
reasonable baselines and budgets, and that critical milestones are met, on-time and
within budget. In addition, by providing a fresh perspective, the Deputy Director can
help ensure that projects receive funding only when they are ready for the next phase of
development. By focusing on the overall progress and management of the project, the
LFP Office helps balance the business and financial performance with the scientific
goals and interests.

However, NSF has not yet established the management framework and structure that
recognizes the LFP Office’s project management oversight role. NSF has made
progress in creating the LFP Office and developing the higher-level guidelines for
managing large facility projects, and is beginning to develop the detailed guidance
needed by program officers to adequately manage their large facility projects. Yet, the
role of the LFP Office, at this point in time, is primarily advisory and collaborative in
nature, and relies on relationships to influence project management decisions.

This is evidenced in NSF’s current policies and guidelines, which describe the LFP
Office’s roles and responsibilities as advisory and collaborative, rather than
authoritative, and do not describe an independent oversight function for the Deputy
Director and the LFP Office, as originally intended. For example, according to NSF’s
draft policy on roles and responsibilities, the Deputy Director has two primary
responsibilities: (1) to serve as NSF’s primary resource for all policy or process issues
related to the development, implementation, and oversight of MREFC projects; and (2)
to update all policies and procedures for MREFC projects as reflected in the Facilities
Management and Oversight Guide and its supporting documents.



10
 “Setting Priorities for Large Research Facility Projects Supported by the National Science Foundation,”
Committee on Setting Priorities for NSF-Sponsored Large Research Facility Projects, 2004, Washington
DC: National Academies Press, p 31.


                                                    5
This draft policy also describes how the Deputy Director “works closely with the
Program Officer and the Grants Officer, providing expert assistance on non-scientific
and non-technical aspects of project planning, budgeting, implementation, and
management to further strengthen the oversight capabilities of the Foundation.” The
Deputy Director “also facilitates the use of best management practices by fostering
coordination and collaboration throughout NSF to share application of lessons
learned from prior projects…[and] advises the Program Officer directly on non-technical
aspects of management and oversight.”11 [Emphasis added.] While the Deputy Director
chairs a facilities panel that has responsibility for approving a project’s Internal
Management Plan, and receives periodic reports from the project’s program officer, he
does not have actual authority to require responses to recommendations made on
project management and execution.12 Thus, these draft policies suggest that NSF views
the LFP Office as primarily serving in a coordinating and advisory capacity to the
scientific staff who are managing and making the day to day decisions affecting these
large projects. The LFP Office does not appear to have the authority to substantively
influence project management decisions.

The LFP Office recognizes that its role must evolve from that of an advisory office, to
one that is more proactive, by providing oversight of large facility projects. However, to
enable the LFP Office’s evolution to this more influential role envisioned by Congress
and the National Academies Committee, the Deputy Director agrees that more formal
authority and resources are necessary. NSF must clearly recognize and champion the
LFP Office’s oversight responsibility, and provide it with the independent authority and
resources to support its important work. Without this framework, the role of NSF’s LFP
Office is likely to remain one that is primarily advisory and collaborative and relies on
relationships to influence, rather than one with the formal charge to substantively and
positively influence project management decisions.

        LFP Office Organizational Placement Suggests Limited Oversight Role

The Deputy Director’s assistance and advisory function is reinforced by the LFP Office’s
placement within NSF’s organizational structure. The Deputy Director reports to NSF’s
Chief Financial Officer, within the Office of Budget, Finance, and Award Management
(BFA), which may limit the office from being seen as the authority for large facility
project management and oversight for both cost and performance issues. As a result,
the Deputy Director does not appear to have the situational authority to meaningfully
influence the actions of the program officers in NSF’s scientific directorates who
ultimately manage these projects, and to be appropriately involved in key management
decisions.



11
   Draft “Roles and Responsibilities of NSF Staff Involved in the Management and Oversight of Large
Facilities,” pg. 30.
12
   While the Deputy Director and Chief Financial Officer have described to us a process for resolving
conflicts among the Deputy Director and program officers managing large facility projects, this process is
informal, not in writing, and still does not vest any decision-making authority with the Deputy Director.


                                                     6
For example, the Deputy Director may visit project sites and facilities, but he does not
currently conduct independent reviews of large facility projects that could potentially
identify any problems with ongoing projects and provide constructive solutions and
recommendations to ensure that projects remain on schedule and within budget. In
addition, NSF does not always include the Deputy Director in key discussions regarding
large facility projects. For example, NSF did not initially include the Deputy Director in
closed sessions of the MREFC Panel, chaired by NSF’s Chief Operating Officer, where
key decisions concerning ongoing and upcoming large facility projects are made. While
the Deputy Director is now considered an ex officio member of the MREFC Panel and
may attend both open and closed Panel sessions, his status within this group is unclear.

Similarly, because NSF has not clearly designated the Deputy Director as responsible
for managing the implementation process and for bringing “all the various constituencies
together so that the project happens on time, within budget, and with satisfactory
performance,”13 his placement within BFA may be contributing to some confusion
regarding the applicability of the new facility management policies. It is unclear whether
these policies will be issued as internal BFA policy, or as formal NSF policy applicable
to the scientific directorates as well.

BFA recently asked its Business and Operations Advisory Committee to establish a
Facilities Subcommittee to help provide the LFP Office with direction and advice as to
its policies, procedures, and practices as they relate to large facility projects. While this
action helps to recognize the importance of the LFP Office within BFA, NSF senior
management needs to send a clear message that project management oversight is an
agency function that is important and necessary for the programmatic and financial
success of both the project and NSF. Perhaps relocating the LFP Office to report to the
Director’s Office rather than the Chief Financial Officer would reinforce that message.
However, at a minimum, NSF’s Director should emphasize the importance of the LFP
Office to both programmatic and financial operations and establish a clear line of
authority for it by acting as its senior management champion.

        Workload and Staffing Issues Constrain LFP Office Activities

Finally, the LFP Office lacks the staffing resources necessary to fulfill either its oversight
or advisory responsibilities. The LFP Office currently consists of two permanent staff,
the Deputy Director and a Facilities Management and Oversight Director. The current
staffing level is down from fiscal year 2004 when the office also had a full-time staff
person on loan from the Department of Energy. Another staff person on loan from
within NSF recently joined the LFP Office to help with policy writing; however, this new
staff member will be retaining program officer responsibilities and consequently, will
only be available to the LFP Office roughly 50 percent of his time.



13
 “Setting Priorities for Large Research Facility Projects Supported by the National Science Foundation,”
Committee on Setting Priorities for NSF-Sponsored Large Research Facility Projects, 2004, Washington
DC: National Academies Press, p 31.


                                                    7
The LFP Office needs to develop a formal workforce-staffing plan for accomplishing its
responsibilities. In expressing its concerns regarding the LFP Office’s lack of staffing
resources, Congress has requested that NSF detail its plans for staffing the office.14
The Deputy Director has general staffing ideas that include the possibility of adding
another staff person later in fiscal year 2005, and possibly hiring temporary personnel
from outside NSF on one-year details. However, to accomplish its many important
tasks, the LFP Office currently relies on part-time staff on loan to support it; creating a
“virtual office.” The Deputy Director is also considering engaging the services of
contractors or consultants to supplement the staff. But, at the time of our survey, these
plans were not yet definite. According to NSF’s Chief Financial Officer, to whom the
Deputy Director reports, these needed additions to the staff are competing for resources
with other priorities, and obtaining additional staff is dependent upon the LFP Office
receiving a sufficient share of NSF’s funding.

The Deputy Director and his staff are knowledgeable and conscientious, and are
responsible for a wide range of activities, including writing the new policy and
procedures for facilities project management, and overseeing the contract for an
automated cost-tracking system. These very important tasks are in addition to providing
advice in the day-to-day management of current large facility projects. The LFP
Office’s staff’s many day-to-day activities include:

     •   Traveling to facility sites to see the progress of various projects;
     •   Providing formal support to NSF program officers through participation on
         Program Advisory Teams established for each project;
     •   Chairing and being involved with the Facilities Panel, which reviews and
         approves the Internal Management Plans for each project;
     •   Providing ad hoc advice to NSF program officers and others involved in large
         facility management;
     •   Receiving and reviewing monthly status reports for each project (the Deputy
         Director currently receives monthly reports on 13 separate projects);
     •   Helping to provide formal project management training to NSF staff through such
         outlets as the NSF Academy and the “Project Science” workshop on large project
         management; and
     •   Participating in NSF’s Major Research Equipment and Facilities Construction
         (MREFC) Panel, which is part of the formal approval and prioritization process for
         large facilities.

With so many activities and few staff, the LFP Office, while conscientious and well-
intentioned, has provided only minimal project management guidance to NSF staff, and
has no apparent long-term strategy for putting in place basic management systems and
processes to monitor and oversee large facility projects. For example, tasks such as
writing formal policy are fit in around the growing day-to-day needs of advising on
ongoing large facility projects. The policy-writing project expected to provide crucial

14
  H.Rept. 108-792, Conference Report to Accompany H.R. 4818 - Consolidated Appropriations Act, 2005
(Nov. 2004).


                                                8
project management guidance to NSF program officers and large facilities project
managers, is as yet undefined with an unclear number of modules to the Large Facilities
Management and Oversight Guide to be completed. Without a workforce staffing plan
and adequate resources to implement that plan, it is difficult for the staff of the LFP
Office to effectively perform even the many advisory activities and tasks required for
adequately managing the various phases of all of the large facility projects, much less
implement a successful long-term oversight program.

Progress Is Slow in Developing Procedures and the Central Cost-Tracking
System

In addition to these obstacles to implementing a viable large facility management
program, NSF has not yet completed the new project and financial management
policies and procedures it committed to developing. During the past four years, NSF
created a Facilities Management and Oversight Guide, which establishes a framework
for project management. However, the Guide does not provide the detail necessary to
give practical guidance to staff that perform the day-to-day oversight and management
of large facility projects.15 NSF intends to provide that detail through supplementary
modules to the Guide and the development of this guidance is one of the primary
responsibilities of the LFP Office. The office intends as many as 24 modules, 4 of which
have been completed in draft form but are not yet implemented. The OIG has been
pleased to review these draft modules and provide comments back to the LFP Office.

Moreover, NSF has not yet implemented a centralized and automated system for
tracking the actual full life-cycle costs of large facility projects. Recently, on September
30, 2004, NSF awarded a contract for the development of an automated cost-tracking
system.16 Formal management of this contract, which the Deputy Director expects to be
completed during fiscal year 2005, resides with NSF’s Office of Information and
Resource Management, and the LFP Office is involved in its oversight as the business-
system owner.

Conclusions

While creating and filling the position of Deputy Director, Large Facility Projects is a
good start towards addressing NSF’s needs with respect to its management of large
facility projects, much remains to be done before this new office can realize its intended
oversight role. This office needs both resources and organizational authority. However,
simply changing reporting lines and increasing the number of bodies may not be the
answer. NSF needs to demonstrate its commitment to large facility project
management and take a more structured management approach by recognizing and
formalizing the oversight mission of the LFP Office. This mission statement should
include both a vision for success along with specific goals and measures that reflect the

15
   NSF is currently working to revise this Guide and expects the first draft of the new Guide to be
complete by March 31, 2005.
16
   NSF awarded the development of the cost-tracking system to Booz-Allen and Hamilton, Inc., as part of
its $4.3 million E-Business New Development Tasks.


                                                   9
Office’s oversight activities and accomplishments. For example, outcomes for this office
could include the number of large facility projects that are completed on time and within
budget, as well as outputs such as the number of independent reviews of projects, and
the number of program officers successfully completing project management training.
Then, by developing a strategy for how this office will reach its oversight goals, NSF can
develop a realistic staffing plan that provides the proper amount and type of resources.

In addition, in conjunction with the Chief Financial Officer, the LFP Office needs a high-
level champion – possibly NSF’s Director, in order to provide the LFP Office with the
organizational authority it needs to be successful. Large facility project management
has been an ongoing challenge at NSF. NSF will not be able to meet this challenge –
thereby putting its investments, and taxpayer dollars, at risk of mismanagement and
potential waste – without demonstrating a clear and strong commitment to the important
oversight role to be played by the LFP Office.

As NSF developed the draft roles and responsibilities for this office, the OIG expressed
its concern that the Deputy Director’s responsibilities emphasized the advisory and
collaborative aspects, but did not address the responsibilities necessary to fulfill his
oversight charge. While providing advice and policy guidance are a part of successful
project management, the Deputy Director’s independent oversight role is equally critical
to a viable and substantive large facility management program. The LFP Office
recognizes the need to evolve beyond its advisory role and has embraced the
recommendations made by the National Academies Committee that call for more
independent oversight of large facility projects. However, its policies and guidance do
not yet reflect that oversight role. Until NSF minimizes these obstacles and establishes
a management framework for oversight, the LFP Office will continue to be hampered in
its effectiveness, thereby putting NSF investments and taxpayer dollars at risk of
mismanagement and potential waste.




                                            10
